2311 Douglas Street
Omaha, Nebraska 68102-1214

COCKLE

z E-Mail Address:
Le ga 1 Briefs contact@cocklelegalbriefs.com

Est. 1923
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850
No. 20-843
NEW YORK STATE RIFLE &
PISTOL ASSOCIATION, INC., et al.,
Petitioners,
v

KEVIN P. BRUEN, in His Official Capacity as
Superintendent of New York State Police, et al.,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the AMICI CURIAE BRIEF OF
ITALO-AMERICAN JURISTS AND ATTORNEYS IN SUPPORT OF PETITIONERS in the
above entitled case complies with the typeface requirement of Supreme Court Rule 33.1(b), being
prepared in New Century Schoolbook 12 point for the text and 10 point for the footnotes, and this
brief contains 7947 words, excluding the parts that are exempted by Supreme Court Rule 33.1(d),

as needed.

Subscribed and sworn to before me this 15th day of July, 2021.
Jam duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL NOTAAY-State of Nebraska Ke OAL
RENEE J. GOSS 9.

 

 

My Comm. Exp. September 5, 2028

Notary Public Affiant

40976
